   DEPARTMENT OF HEALTH &. HUMAN SERVICES                                      Office of Inspector General


                                                                               Washington, D.C. 20201




                                       AUG 1 2 2008



TO:               Kerry Weems
                  Acting Administrator
                  Centers for Medicare & Medicaid Services


FROM:             Daniel R. Levinson
                  Inspector General


SUBJECT:          Memorandum Report: "Comparison of Fourth-Quarter 2007 Average Sales
                  Prices and Average Manufacturer Prices: Impact on Medicare
                  Reimbursement for Second Quarter 2008," OEI-03-08-00340


This congressionally mandated review compares average sales prices (ASP) to average
manufacturer prices (AMP) for Medicare Part B prescription drugs and identifies drugs with
ASPs that exceeded AMPs by at least 5 percent during the fourth quarter of 2007. It also
determines the impact of lowering reimbursement amounts for drugs that meet the 5-percent
threshold.

This is the Office of Inspector General's (DIG) seventh report comparing ASPs to AMPs.
However, it is DIG's first pricing comparison since the Centers for Medicare & Medicaid
Services (CMS) implemented a revised ASP payment methodology recently mandated by
statute. In December 2007, the Medicare, Medicaid, and SCHIP Extension Act of 2007,
P.L. No. 110-173, amended section 1847A(b) of the Social Security Act (the Act) and
changed the way in which CMS calculates volume-weighted ASPs, effective April 1, 2008.

Using CMS's revised ASP payment amount methodology, we identified 12 of285 drug
codes with ASPs that exceeded AMPs by at least 5 percent in the fourth quarter of2007. If
reimbursement amounts for all 12 codes had been based on 103 percent of the AMPs, we
estimate that Medicare expenditures would have been reduced by $20 million during the
second quarter of 2008 alone.

BACKGROUND
Section I847A(d)(2)(B) of the Act mandates that DIG compare ASPs to AMPs. If GIG finds
that the ASP for a drug exceeds the AMP by a certain percentage (currently 5 percent),
section 1847A(d)(3)(A) of the Act states that the Secretary of the Department of Health and
Human Services (the Secretary) may disregard the ASP for the drug when setting
reimbursement amounts. Section 1847A(d)(3)(C) of the Act goes on to state that " ... the
Inspector General shall inform the Secretary (at such times as the Secretary may specify to
carry out this subparagraph) and the Secretary shall, effective as of the next quarter,

OEI-03-08-00340                                 Comparison of Fourth-Quarter 2007 ASPs and AMPs
Page 2 – Kerry Weems


substitute for the amount of payment . . . the lesser of (i) the widely available market
price . . . (if any); or (ii) 103 percent of the average manufacturer price . . . .”

Medicare Part B Coverage of Prescription Drugs
Medicare Part B covers only a limited number of outpatient prescription drugs. Covered
drugs include injectable drugs administered by a physician; certain self-administered drugs,
such as oral anticancer drugs and immunosuppressive drugs; drugs used in conjunction with
durable medical equipment; and some vaccines.

Medicare Part B Payments for Prescription Drugs
CMS contracts with private companies, known as carriers, to process and pay Medicare
Part B claims, including those for prescription drugs. To obtain reimbursement for covered
outpatient prescription drugs, physicians and suppliers submit claims to their carriers using
procedure codes. CMS established the Healthcare Common Procedure Coding System
(HCPCS) to provide a standardized coding system for describing the specific items and
services provided in the delivery of health care. In the case of prescription drugs, each
HCPCS code defines the drug name and dosage size but does not specify manufacturer or
package size information.

Medicare and its beneficiaries spent about $11 billion for Part B drugs in 2007. Although
Medicare paid for more than 675 outpatient prescription drug HCPCS codes that year, the
majority of spending for Part B drugs was concentrated on a relatively small subset of those
codes. In 2007, 55 codes accounted for 90 percent of the expenditures for Part B drugs, with
only 12 of these drugs representing half of the total Part B drug expenditures.

Reimbursement Methodology for Part B Drugs and Biologicals
Since January 2005, Medicare Part B has been paying for most covered drugs using a
reimbursement methodology based on ASPs.1 Section 1847A(c) of the Act, as added by the
Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
P.L. No. 108-173, defines an ASP as a manufacturer’s sales of a drug to all purchasers in the
United States in a calendar quarter divided by the total number of units of the drug sold by
the manufacturer in that same quarter. The ASP is net of any price concessions, such as
volume discounts, prompt pay discounts, cash discounts, free goods contingent on purchase
requirements, chargebacks, and rebates other than those obtained through the Medicaid drug




1
  In 2004, the reimbursement amount for most covered drugs was based on 85 percent of the average wholesale
price as published in national pricing compendia, such as the “Red Book.” Prior to 2004, Medicare Part B
reimbursed for covered drugs based on the lower of either the billed amount or 95 percent of the average
wholesale price.

OEI-03-08-00340                                   Comparison of Fourth-Quarter 2007 ASPs and AMPs
Page 3 – Kerry Weems


rebate program.2 Sales that are nominal in amount are exempted from the ASP calculation,
as are sales excluded from the determination of “best price” in the Medicaid drug rebate
program.3 4

Manufacturers report ASPs by national drug codes (NDC), which are 11-digit identifiers that
indicate the manufacturer, product dosage form, and package size of the drug. Manufacturers
must provide CMS with the ASP and volume of sales for each NDC on a quarterly basis,
with submissions due 30 days after the close of each quarter.5

Because Medicare Part B reimbursement for outpatient drugs is based on HCPCS codes
rather than NDCs, and more than one NDC may meet the definition of a particular HCPCS
code, CMS has developed a file that “crosswalks” manufacturers’ NDCs to HCPCS codes.
CMS uses information in this crosswalk to calculate volume-weighted ASPs for covered
HCPCS codes.

Calculation of Volume-Weighted Average Sales Prices
To calculate volume-weighted ASPs, CMS uses an equation that involves the following
variables: the ASP for the 11-digit NDC as reported by the manufacturer, the volume of
sales for the NDC as reported by the manufacturer, and the number of billing units in the
NDC as determined by CMS. The amount of the drug contained in an NDC may differ from
the amount of the drug specified by the HCPCS code that providers use to bill Medicare.
Therefore, the number of billing units in an NDC describes the number of HCPCS code units
that are in that NDC. For instance, an NDC may contain a total of 10 milliliters of Drug A,
but the corresponding HCPCS code may be defined as only 5 milliliters of Drug A. In this
case, there are two billing units in the NDC. CMS calculates the number of billing units in
each NDC when developing its crosswalk files.

Prior to April 2008, CMS calculated volume-weighted ASPs using the equation presented in
Appendix A. However, section 112(a) of the Medicare, Medicaid, and SCHIP Extension Act
of 2007, P.L. No. 110-173, changed section 1847A(b)(6) of the Act to require that CMS
compute volume-weighted ASPs using a revised methodology, effective April 2008. This
revised methodology was initially proposed by OIG in a February 2006 report entitled
“Calculation of Volume-Weighted Average Sales Price for Medicare Part B Prescription
Drugs” (OEI-03-05-00310). The revised equation for calculating volume-weighted ASPs is
also provided in Appendix A.

Second-quarter 2008 Medicare allowances for most covered drug codes were based on
fourth-quarter 2007 ASP submissions from manufacturers, which were volume-weighted
using the revised methodology. Under the ASP pricing methodology, the Medicare
2
  Section 1847A(c)(3) of the Act. 

3
  Pursuant to section 1927(c)(1)(C)(i) of the Act, “best price” is the lowest price available from the 

manufacturer during the rebate period to any wholesaler, retailer, provider, health maintenance organization, 

nonprofit entity, or governmental entity within the United States, with certain exceptions. 

4
  Section 1847A(c)(2) of the Act. 

5
  Section 1927(b)(3) of the Act. 


OEI-03-08-00340                                     Comparison of Fourth-Quarter 2007 ASPs and AMPs
Page 4 – Kerry Weems


allowance for most Part B drugs is equal to 106 percent of the volume-weighted ASP for the
HCPCS code. Medicare beneficiaries are responsible for 20 percent of this amount in the
form of coinsurance.

The Medicaid Drug Rebate Program and Average Manufacturer Prices
For Federal payment to be available for covered outpatient drugs provided under Medicaid,
sections 1927(a)(1) and (b)(1) of the Act mandate that drug manufacturers enter into rebate
agreements with the Secretary and pay quarterly rebates to State Medicaid agencies. Under
these rebate agreements and pursuant to section 1927(b)(3) of the Act, manufacturers must
provide CMS with the AMP for each of their NDCs on a quarterly basis, with submissions
due 30 days after the close of each quarter.6

As generally defined in section 1927(k)(1) of the Act, the AMP is the average price paid to
the manufacturer for the drug in the United States by wholesalers for drugs distributed to the
retail pharmacy class of trade. Prior to the passage of the Deficit Reduction Act of 2005
(DRA), P.L. No. 109-171, manufacturers were required to deduct customary prompt pay
discounts when calculating AMPs. However, section 6001(c)(1) of the DRA amended
section 1927(k)(1) of the Act such that AMPs must be determined without regard to
customary prompt pay discounts, effective January 2007. In December 2006, CMS
instructed manufacturers to exclude customary prompt pay discounts from their AMP
calculations as of January 2007.7 In July 2007, CMS published a final rule
(72 Fed. Reg. 39142) (July 17, 2007), which, among other things, implements section
6001(c)(1) of the DRA and clarifies the way in which the AMP must be calculated.
Specifically, 42 CFR § 447.504 of the final regulation clarifies the manner in which the AMP
is to be determined.8

The AMP is generally calculated as a weighted average of prices for all of a manufacturer’s
package sizes of a drug sold during a given quarter and is reported for the lowest identifiable
quantity of the drug (e.g., 1 milligram, 1 milliliter, 1 tablet, 1 capsule).

Office of Inspector General’s Monitoring of Average Sales Prices and Average
Manufacturer Prices
Since the ASP reimbursement methodology for Part B prescription drugs was implemented
in January 2005, OIG has completed six reports comparing ASPs to AMPs. A list of these
reports is provided in Appendix B.

Although CMS has acknowledged the Secretary’s authority to adjust ASP payment limits
based on the findings of these studies, the agency has yet to make any changes to Part B drug
6
  Section 6001(b)(1)(A) of the DRA changed section 1927(b) of the Act to require that manufacturers also

report AMPs on a monthly basis, effective January 2007. Drug manufacturers will continue to report quarterly 

AMP data in addition to their monthly submissions. 

7
  Medicaid Drug Rebate Program Bulletin for Participating Drug Manufacturers, Release No. 76, 

December 15, 2006. 

8
  In December 2007, the United States District Court for the District of Columbia preliminarily enjoined the 

implementation of the regulation for certain purposes not relevant to this report. 


OEI-03-08-00340                                    Comparison of Fourth-Quarter 2007 ASPs and AMPs
Page 5 – Kerry Weems


reimbursement as a result of OIG’s pricing comparisons. In commenting on one of OIG’s
reports, CMS expressed a desire to better understand fluctuating differences between ASPs
and AMPs, with the intent of developing a process to adjust payment amounts based on the
results of OIG’s pricing comparisons.9 However, CMS has not specified what, if any, steps it
will take to adjust Medicare reimbursement amounts for drugs that meet the 5-percent
threshold specified in section 1847A(d)(3) of the Act.

METHODOLOGY

We obtained from CMS NDC-level ASP data from the fourth quarter of 2007, which were
used to establish Part B drug reimbursement amounts for the second quarter of 2008. In
addition, we obtained the file that CMS used to crosswalk NDCs to their corresponding
HCPCS codes. Both the ASP data and the crosswalk file were current as of March 7, 2008.
We also obtained AMP data from CMS for the fourth quarter of 2007, which were current as
of February 6, 2008.

Analysis of Average Sales Price Data From the Fourth Quarter of 2007
As mentioned previously, Medicare does not base reimbursement for covered drugs on
NDCs; instead, it uses HCPCS codes. Therefore, CMS uses ASP information submitted by
manufacturers for each NDC to calculate a volume-weighted ASP for each covered HCPCS
code. When calculating these volume-weighted ASPs, CMS includes only NDCs with ASP
submissions that are deemed valid. We did not examine NDCs that CMS opted to exclude
from its calculation, nor did we verify the accuracy of CMS’s crosswalk files.

As of March 2008, CMS had established prices for 525 HCPCS codes based on the revised
ASP reimbursement methodology mandated by section 112(a) of the Medicare, Medicaid,
and SCHIP Extension Act of 2007.10 Reimbursement amounts for the 525 HCPCS codes
were based on ASP data for 3,378 NDCs.

Analysis of Average Manufacturer Price Data From the Fourth Quarter of 2007
An AMP is reported for the lowest identifiable quantity of the drug contained in the NDC
(e.g., 1 milligram, 1 milliliter, 1 tablet, 1 capsule). In contrast, an ASP is reported for the
entire amount of the drug contained in the NDC (e.g., for 50 milliliters, for 100 tablets). To
ensure that the AMP would be comparable to the ASP, it was necessary to convert the AMP
for each NDC so that it represented the total amount of the drug contained in that NDC.

In making these conversions, we examined AMPs only for those 3,378 NDCs that CMS used
in its calculation of volume-weighted ASPs for the 525 codes. If AMP data were not
available for one or more of these NDCs, we excluded the corresponding HCPCS code from
our analysis. We excluded a total of 237 HCPCS codes using this conservative approach.


9
 OEI-03-07-00140, July 2007. 

10
 Several Part B drugs, including certain vaccines and blood products, are not paid under the ASP

methodology.


OEI-03-08-00340                                    Comparison of Fourth-Quarter 2007 ASPs and AMPs
Page 6 – Kerry Weems


The remaining 288 HCPCS codes had AMP data for every NDC that CMS used in its
calculation of volume-weighted ASPs. These 288 HCPCS codes represented 1,127 NDCs.

We then multiplied the AMPs for these 1,127 NDCs by the total amount of the drug
contained in each NDC, as identified by sources such as the CMS crosswalk file,
manufacturer Web sites, the “Red Book,” and the Food and Drug Administration’s NDC
directory. We will refer to the resulting amounts as converted AMPs. For four NDCs, we
could not successfully identify the amount of the drug reflected by the ASP and therefore
could not calculate a converted AMP. These four NDCs were crosswalked to three HCPCS
codes. We did not include these three HCPCS codes (24 NDCs) in our final analysis.

Using the converted AMPs for the remaining 1,103 NDCs, we then calculated a
volume-weighted AMP for each of the codes, consistent with the revised methodology for
calculating volume-weighted ASPs. We calculated volume-weighted AMPs for a total of
285 HCPCS codes. We did not verify the accuracy of manufacturer-reported ASP and AMP
data.

Comparing Volume-Weighted ASPs to Volume-Weighted AMPs for the Fourth
Quarter of 2007 Using the Revised ASP Payment Methodology
For each of the 285 HCPCS codes included in our study, we compared the volume-weighted
ASPs and AMPs and identified codes with an ASP that exceeded the AMP by at least
5 percent.

For those HCPCS codes that met or exceeded the 5-percent threshold, we reviewed the
associated NDCs to verify the accuracy of the billing unit information. According to our
review, NDCs for two codes had billing unit information in CMS’s crosswalk file that may
not have accurately reflected the number of billing units actually contained in the NDCs.
Because volume-weighted ASPs and AMPs are calculated using this billing unit information,
we could not be certain that the results for the two codes were correct. Therefore, we did not
include these codes in our findings.

For the remaining HCPCS codes, we then estimated the monetary impact of lowering
reimbursement to 103 percent of the AMP.11 For each of the HCPCS codes that met the
5-percent threshold, we calculated 103 percent of the volume-weighted AMP and subtracted
this amount from the second-quarter 2008 reimbursement amount for the HCPCS code,
which is equal to 106 percent of the volume-weighted ASP. To estimate the financial effect
for the second quarter of 2008, we then multiplied the difference by one-fourth of the number
of services that were allowed by Medicare for each HCPCS code in 2007, as reported in

11
  Pursuant to section 1847A(d)(3) of the Act, if the ASP for a drug exceeds the AMP by at least 5 percent, the
Secretary has the authority to disregard the ASP for that drug and replace the payment amount for the drug code
with the lesser of the widely available market price for the drug (if any) or 103 percent of the AMP. For the
purposes of this study, we used 103 percent of the AMP to estimate the impact of lowering reimbursement
amounts. If widely available market prices had been available for these drugs and lower than 103 percent of the
AMP, the savings estimate presented in this report would have been greater.

OEI-03-08-00340                                    Comparison of Fourth-Quarter 2007 ASPs and AMPs
Page 7 – Kerry Weems


CMS’s Part B Extract and Summary System (BESS).12 This estimate assumes that the
number of services that were allowed by Medicare in 2007 remained consistent from one
quarter to the next and that there were no significant changes in utilization between 2007 and
2008.

Limitations
This is the first comparison of ASPs to AMPs that OIG has conducted since CMS
implemented its revised ASP payment methodology. Because pricing data in the fourth
quarter of 2007 were volume-weighted differently than in previous quarters, the results of
this current pricing comparison are not comparable to those of previous OIG pricing
comparisons for the purpose of establishing trends over time. OIG is conducting follow-up
work to identify the drug codes that would have met the 5-percent threshold if CMS’s revised
ASP payment methodology had been in effect throughout calendar year 2007.

Furthermore, the definition of AMP changed in January 2007, such that AMPs must now be
determined without regard to customary prompt pay discounts.13 Because manufacturers are
still required to include customary prompt pay discounts in their ASP calculations, the
dynamic between ASPs and AMPs may be different in this report as compared to that in OIG
reports using prices submitted prior to 2007.

Standards
This inspection was conducted in accordance with the “Quality Standards for Inspections”
issued by the President’s Council on Integrity and Efficiency and the Executive Council on
Integrity and Efficiency.

RESULTS

Under the Revised ASP Payment Methodology, Volume-Weighted ASPs for 12 of
285 Drug Codes Exceeded the Volume-Weighted AMPs by at Least 5 Percent
Consistent with sections 1847A(d)(2)(B) and 1847A(d)(3) of the Act, OIG compared ASPs
to AMPs to identify instances in which the ASP for a particular drug exceeded the AMP by a
threshold of 5 percent. In the fourth quarter of 2007, 12 of the 285 HCPCS codes included in
our review (4 percent) met this 5-percent threshold. A list of the 12 HCPCS codes, their
descriptions, and their HCPCS dosage amounts is presented in Appendix C.

Table 1 on the next page describes the extent to which ASPs exceeded AMPs for the
12 HCPCS codes.14 For over half of the 12 codes, volume-weighted ASPs exceeded
volume-weighted AMPs by 20 percent or more. The ASPs for three of these codes were
more than double the AMPs.


12
   At the time of extraction, 2007 BESS data were 90 percent complete. 

13
   Section 1927(k)(1) of the Act (as amended by section 6001(c)(1) of the DRA) and Medicaid Drug Rebate

Program Bulletin for Participating Drug Manufacturers, Release No. 76, December 15, 2006. 

14
   Because of the confidential nature of ASP data, the information in the table is presented in ranges. 


OEI-03-08-00340                                   Comparison of Fourth-Quarter 2007 ASPs and AMPs
Page 8 – Kerry Weems


                  Table 1: Extent to Which ASPs Exceeded AMPs for 12 HCPCS Codes

                                Percentage by Which                      Number of
                                ASP Exceeded AMP                      HCPCS Codes
                                5.00%–9.99%                                          4
                                10.00%–19.99%                                        1
                                20.00%–29.99%                                        2
                                30.00%–39.99%                                        1
                                40.00%–49.99%                                        1
                                50.00%–59.99%                                        0
                                60.00%–69.99%                                        0
                                70.00%–79.99%                                        0
                                80.00%–89.99%                                        0
                                90.00%–99.99%                                        0
                                100% and above                                       3
                                   Total                                            12
                             Source: OIG analysis of fourth-quarter 2007 ASP and AMP data, 2008.




Lowering reimbursement amounts for the 12 HCPCS codes to 103 percent of the AMPs
would have reduced Medicare allowances by an estimated $20 million in the second quarter
of 2008. Sections 1847A(d)(3)(A) and (B) of the Act provide that the Secretary may
disregard the ASP pricing methodology for a drug with an ASP that exceeds the AMP by at
least 5 percent. Pursuant to section 1847A(d)(3)(C) of the Act, “. . . the Secretary shall,
effective as of the next quarter, substitute for the amount of payment . . . the lesser of (i) the
widely available market price . . . (if any); or (ii) 103 percent of the average manufacturer
price . . . .”15 In this study, we identified 12 HCPCS codes that met the 5-percent threshold
specified in the Act. If reimbursement amounts for these 12 codes had been based on
103 percent of the AMPs during the second quarter of 2008, we estimate that Medicare
expenditures would have been reduced by $20 million in that quarter alone.16

Two of the twelve HCPCS codes accounted for almost 90 percent of the $20 million. If the
reimbursement amounts for codes J2505 and J3315 had been based on 103 percent of the
AMP during the second quarter of 2008, Medicare expenditures would have been reduced by
an estimated $11 million and $7 million, respectively.




15
   For the purposes of this study, we used 103 percent of the AMP to estimate the impact of lowering
reimbursement amounts. If widely available market prices had been available for these drugs and lower than
103 percent of the AMP, the savings estimates presented in this report would have been greater.
16
   This savings estimate assumes that the number of services that were allowed by Medicare in 2007 remained
consistent from one quarter to the next and that there were no significant changes in utilization between
2007 and 2008.

OEI-03-08-00340                                     Comparison of Fourth-Quarter 2007 ASPs and AMPs
Page 9 – Kerry Weems


CONCLUSION

For the purpose of monitoring Medicare reimbursement amounts based on ASPs and
consistent with sections 1847A(d)(2)(B) and 1847A(d)(3) of the Act, OIG compared ASPs
and AMPs to identify instances in which the ASP for a particular drug exceeded the AMP by
at least 5 percent. This review is the seventh such comparison conducted by OIG. Using the
revised ASP payment methodology recently implemented by CMS, we identified a total of
12 HCPCS codes in the fourth quarter of 2007 that met the threshold for price adjustment.
To establish a more useful and consistent benchmark for comparisons of ASPs and AMPs
over time, OIG is conducting follow-up work to identify the HCPCS codes that would have
met the 5-percent threshold if CMS’s revised ASP payment methodology had been in effect
during every quarter of 2007.

Some of OIG’s previous reports comparing ASPs and AMPs have contained
recommendations. We are not making additional recommendations in this report and, as
such, are issuing the report directly in final form. If you have comments or questions about
this report, please provide them within 60 days. Please refer to report number
OEI-03-08-00340 in all correspondence.




OEI-03-08-00340                            Comparison of Fourth-Quarter 2007 ASPs and AMPs
Page 10 – Kerry Weems


APPENDIX A

Equations Used by the Centers for Medicare & Medicaid Services To Calculate
Volume-Weighted Average Sales Prices
In the following equations, a “billing unit” is defined as the number of Healthcare Common
Procedure Coding System (HCPCS) code units that are contained in a national drug code
(NDC).



1. 	The Revised Equation Used by the Centers for Medicare & Medicaid
    Services (CMS) To Calculate Volume-Weighted Average Sales Prices (ASP)
    Beginning April 1, 2008


                    Volume-Weighted ASP                   Sum of (ASP for NDC * Number of NDCs Sold)
                                             =
                     for the Billing Unit of
                         HCPCS Code                  Sum of (Number of NDCs Sold * Billing Units in NDC)




2. 	The Equation Used by CMS To Calculate Volume-Weighted ASPs Prior to
    April 1, 2008

                                                                 ASP for NDC         * Number of NDCs Sold
                    Volume-Weighted ASP          Sum of
                                                              Billing Units in NDC
                     for the Billing Unit of
                         HCPCS Code          =
                                                                      Sum of Number of NDCs Sold




OEI-03-08-00340 	                                 Comparison of Fourth-Quarter 2007 ASPs and AMPs
Page 11 – Kerry Weems


APPENDIX B

Previous Office of Inspector General Reports Comparing Average Sales Prices and Average
Manufacturer Prices


   •	 “Monitoring Medicare Part B Drug Prices: A Comparison of Average Sales Prices to
      Average Manufacturer Prices” (OEI-03-04-00430), April 2006.


   •	 “Comparison of Fourth-Quarter 2005 Average Sales Prices to Average Manufacturer
      Prices: Impact on Medicare Reimbursement for Second Quarter 2006”
      (OEI-03-06-00370), July 2006.


   •	 “Comparison of Third-Quarter 2006 Average Sales Prices to Average Manufacturer
      Prices: Impact on Medicare Reimbursement for First Quarter 2007”
      (OEI-03-07-00140), July 2007.


   •	 “Comparison of First-Quarter 2007 Average Sales Prices to Average Manufacturer
      Prices: Impact on Medicare Reimbursement for Third Quarter 2007”
      (OEI-03-07-00530), September 2007.


   •	 “Comparison of Second-Quarter 2007 Average Sales Prices to Average Manufacturer
      Prices: Impact on Medicare Reimbursement for Fourth Quarter 2007”
      (OEI-03-08-00010), December 2007.


   •	 “Comparison of Third-Quarter 2007 Average Sales Prices to Average Manufacturer
      Prices: Impact on Medicare Reimbursement for First Quarter 2008”
      (OEI-03-08-00130), May 2008.




OEI-03-08-00340 	                       Comparison of Fourth-Quarter 2007 ASPs and AMPs
Page 12 – Kerry Weems


APPENDIX C

Twelve Healthcare Common Procedure Coding System Codes With Average Sales
Prices That Exceeded Average Manufacturer Prices by at Least 5 Percent in the Fourth
Quarter of 2007


          HCPCS
          Code                                            Short Description               HCPCS Code Dosage
          J0300                                         Amobarbital injection                            125 mg

          J1120                                Acetazolamid sodium injection                             500 mg

          J1270                                      Doxercalciferol injection                             1 mcg

          J1364                                          Erythro lactobionate                            500 mg

          J1441                                           Filgrastim injection                          480 mcg

          J1626                                     Granisetron HCl injection                           100 mcg

          J2505                                        Pegfilgrastim injection                                 6 mg

          J2690                                   Procainamide HCl injection                                    1g

          J2760                               Phentolaine mesylate injection                                   5 mg

          J3315                                          Triptorelin pamoate                             3.75 mg

          Q0168                                              Dronabinol oral                                   5 mg

          Q0169                                       Promethazine HCl oral                              12.5 mg

         Source: Office of Inspector General analysis of fourth-quarter 2007 average sales price and average
         manufacturer price data, 2008.




OEI-03-08-00340                                       Comparison of Fourth-Quarter 2007 ASPs and AMPs
